Report No. 00-002 December 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Legal Services of North Texas Inc.
Recipient No. 744030
Final Report No. 00-002
December 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE and METHODOLOGY
RESULTS OF AUDIT
CASE SERVICE REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Examination of Reported Cases
CLOSED CASES
Clients Not Identified
Rejected Applicants
Ineligible Clients
Untimely Closure of Cases
Duplicate Cases
OPEN CASES
Untimely Case Closure
Duplicate Cases
Ineligible Clients
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEES COMMENTS AND OIG DECISIONS
APPENDIX I - Listing of Findings and Associated Recommendations
APPENDIX II - Legal Services of North Texas Comments on Draft Report
APPENDIX III - OIG Staff Responsible for the Audit and Report
EXECUTIVE SUMMARY
The 1998 Grant Activity Report submitted by Legal Services of North Texas
(grantee) overstated the number of cases closed during the year by an estimated
3,964 cases (34 percent).  The grantee reported 11,719 closed cases but only an
estimated 7,755 cases qualified to be reported as closed during 1998.  Open cases
were overstated by an estimated 206 cases (8 percent).  The grantee reported
2,596 cases, but only an estimated 2,390 cases qualified for reporting.
The grantee did not obtain the names of 2,947 clients who were provided
services through the grantees telephone hotline.  About 74 percent of the closed
case overstatement was attributable to these telephone hotline cases.  Most of
these clients appeared to be eligible for LSC funded legal assistance, but their
names were not obtained and recorded in case files or the case management
system.
There were four other causes of the overstatement of closed cases.  An
estimated 407 cases where the applicant was denied service, and an estimated
306 cases for clients whose income exceeded LSC guidelines, were improperly
coded and reported as closed cases.  The grantee did not provide legal services in
these cases.  An estimated 203 cases were reported as closed in 1998 even
though legal activity had ceased prior to 1998 and an estimated 101 cases were
duplicates, i.e., the cases were reported more than once.
Most of the open case overstatement was attributable to an estimated 118
open cases that should have been closed because the client was no longer being
provided legal services.  In addition, an estimated 59 open cases were duplicates
and an estimated 29 open cases involved ineligible over-income clients who did not
receive legal services.  When the grantee corrects the untimely case closure
problem, the open case reporting problems will become immaterial.
Recommendations to correct the above problems are on page 8.
BACKGROUND
Legal Services of North Texas is a nonprofit entity organized to provide legal
services to indigent individuals who meet established eligibility guidelines.  The
grantee is headquartered in Dallas, Texas, and has a branch office in McKinney,
Texas.  Its staff includes approximately 30 attorneys, 5 paralegals, and 18 other
staff who provide administrative support services.  It maintains an extensive Private
Attorney Involvement program throughout its six county service area, working
closely with the county bar associations.  The grantee received funding totaling
approximately $3.5 million in 1998, of which approximately $2.2 million or
63 percent came from LSC.
The grantee prepares and submits an annual Grant Activity Report to LSC on
key aspects of its workload.  The report includes statistics for basic field services
and Private Attorney Involvement programs financed with LSC funds, including the
number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1998, Legal Services of North Texas reported 11,719
closed cases and 2,596 open cases to LSC.
The grantees annual closed case statistics are important workload indicators
and performance measures.  In contrast, the reported open cases are not a
significant measure of a grantees volume of work or productivity.  Open cases are
simply the cases that have not been closed as of the last day of the reporting
period.  These open cases will eventually be closed and reported in the Grant
Activity Report.  In fact, most will be reported as closed in the following year.
Even though the number of open cases has limited utility as a productivity
indicator, it is important that open cases be accurately reported.  If the open case
count is inaccurate, reporting of closed cases probably will be inaccurate.  In
addition, inaccurate reporting of open cases may indicate deficiencies in the
underlying case management system used to produce the data for the Grant
Activity Report.  These deficiencies could result in the less effective management
of legal services delivery.
In 1998, the grantee kept track of client cases with Kemps Case
Management System, an automated management information system.  A new case
management system, "Practice Manager," was being implemented at the time of
our visit.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The Office of Inspector General performed the audit fieldwork from
July 19-30, 1999 at the grantees main office in Dallas and at the branch office in
McKinney.  The OIG examined the grant proposal submitted to LSC by Legal
Services of North Texas for 1998 and the grantees 1998 Grant Activity Report.
The OIG reviewed client intake practices, case processing and closing procedures,
and selected grantee written policies and procedures.  During the on-site visit, the
OIG interviewed and collected information from the grantees president/CEO,
managing attorneys, staff attorneys, paralegals, intake staff, and other support
staff.
The OIG also obtained and reviewed the data in the grantees automated
case management system to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.
The OIG generated a random sample of 196 closed and open client cases for
review.  The sample cases were selected from the grantees case management
system.  Actual overstatements of cases identified by the OIG were eliminated
from the universe before making our projections to preclude double counting of
errors.  The sample provides 90 percent confidence that the error rate for closed
cases was between 7 and 18 percent.  The most probable error rate for closed
cases was 12 percent.  The sample provides 90 percent confidence that the error
rate for open cases was between 5 and 14 percent.  The most probable error rate
for open cases was 8 percent.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, § 509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The grantees 1998 Grant Activity Report overstated the number of cases
closed during the year and the number remaining open at year-end.  Closed cases
were overstated primarily because the grantee incorrectly reported cases for which
the clients identity had not been determined.  Additionally, rejected cases and
other cases involving ineligible clients were incorrectly reported as closed.
Overstatements also occurred because some cases were reported as closed in
1998 even though legal activity ceased in prior years.  Open cases were overstated
because some cases reported as open at the end of 1998 should have been closed
and some cases were reported more than once.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report
summarizing the previous years legal services activity wholly or partially supported
with LSC funds.  The information in the report includes total number of cases
worked on, types of legal issues, number of open and closed cases, and the
reasons cases were closed.  The report also includes information on Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipients priorities.  Eligibility is based
on income and citizenship determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporations
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on open and closed cases is an integral part of
the management oversight process and also allows LSC management to keep its
Board of Directors and the Congress informed of significant program activities and
performance.  In response to the annual reporting requirement, the grantee
submitted the following information to LSC:
Type of Legal ProblemClosedOpen
Consumer/Finance962158
Education342
Employment31010
Family7,2091,890
Juvenile14535
Health4612
Housing1,452203
Income Maintenance536143
Individual Rights2747
Miscellaneous751136
TOTALS11,7192,596
Examination of Reported Cases
The grantee should have reported 7,755 closed cases and 2,390 open cases
in its 1998 Grant Activity Report.  The following chart shows the number of
overstated cases by error type.
REASON FOR OVERSTATEMENTCLOSED
Client Not Identified2,947
Cases rejected but reported407
Ineligible over income client306
Untimely Closing203
Duplicate Cases101
TOTAL CLOSED3,964
OPEN
Untimely Closing118
Duplicate Cases59
Ineligible over income client29
TOTAL OPEN206
CLOSED CASES
Clients Not Identified
The grantee did not obtain and record clients names in the case files or case
management system for 2,947 reported cases handled through the telephone
hotline service.  For most cases, the clients address, income, citizenship status,
and legal problem code were obtained and recorded in the case files and case
management system.  With some exceptions, the clients appeared to be eligible for
LSC funded legal assistance.  However, controls were not in place to ensure that
the reported cases did not include multiple calls from the same individual requesting
assistance for the same problem.
The grantee disagreed with this finding and asserted that the cases were
properly reported.  The grantee stated that the LSC Act, implementing regulations
and LSC policy directives do not require that a clients name be obtained and
documented in order to count a case as a CSR activity.
According to the grantee, the hotline was to be discontinued in September
1999.  A new case management system was expected to be operational at that
time and the grantee planned to adopt a telephone intake system.  With the new
system, client names will be obtained and recorded.
A client name is a prerequisite for a reportable case.  LSC guidance requires
a client name for an activity to be counted as a case and that services provided to
unidentified clients should not be reported as cases.  We concluded that the
grantee should not have reported the 2,947 cases that did not have client names.
Rejected Applicants
Documentation in four sample case files disclosed that the applicants had
been rejected and were not provided legal services.  However, the grantee opened
and closed cases for these rejected applicants.  Based on these errors, the Grant
Activity Report included an estimated 407 cases for applicants who had been
rejected and not provided legal services.  These cases were improperly coded and
reported as closed cases in the category other.
The grantee discovered the erroneous reporting of rejected applicants during
a review of the data prior to submission of the 1998 Grant Activity Report and
during the LSC mandated self-inspection of 1998 CSR data.  The grantee said that
rejected applicants will no longer be reported as cases.
Ineligible Clients
The documentation in three sample closed case files indicated the clients
were not income eligible for legal assistance and were not provided legal services.
These cases were coded as referrals or client withdrawals and reported as closed
cases.  Grantee management confirmed that the three cases should not have been
reported.  Based on these errors, the Grant Activity Report included an estimated
306 cases for ineligible applicants whose income exceeded LSC limits and who,
therefore, were not provided legal services.
Untimely Closure of Cases
The documentation in two sample case files indicated that all legal work on
the cases was completed prior to 1998.  Grantee management confirmed that the
two cases should have been closed in earlier years.  Based on these errors, an
estimated 203 cases were reported as closed in 1998 even though legal activity on
the cases had ceased before 1998.
Duplicate Cases
One case in our sample was closed and reported as a referral to the Private
Attorney component.  The same case was closed and reported when the private
attorney completed work on the case.  Grantee management confirmed that the
sample case should not have been reported and told us that the problem was the
result of an oversight.  Based on these errors, an estimated 101 cases, reported as
closed in 1998, were duplicate cases, i.e., cases reported as closed more than
once.
OPEN CASES
The grantees 1998 Grant Activity Report overstated open cases by an
estimated 206 cases, or 8 percent.  The estimate was based on finding seven
errors in a sample of 85 open case files.  The errors resulted from the untimely
closure of cases, duplicate cases, and cases for ineligible clients. Specifically:
Untimely case closure  Four sample cases should have been closed because
legal activity on the cases ceased during the year.  Based on these errors, an
estimated 118 reported open cases should have been closed.
Duplicate Cases  Two sample cases were duplicates of cases already
reported by the grantee.  The errors occurred because duplicate input forms
were prepared for the cases.  Based on these errors, an estimated 59
duplicate open cases were reported.
Ineligible Clients  One sample case had been opened for a client whose
income exceeded LSC limits.  At the time of the audit, no legal services had
been provided to the client.  Based on this error, an estimated 29 cases for
ineligible clients were reported.
Grantee management reviewed the seven cases with OIG staff and
confirmed that the cases should not have been reported.
CONCLUSIONS
The grantee needs to improve the accuracy of its case statistics to ensure
that the types of errors in the 1998 Grant Activity Report are not repeated in future
reports.  The major cause of reporting errors, the cases without client names,
should be corrected with the proper implementation of the new case management
system.  The grantee must ensure that the cases without client names are not
reported in the 1999 Grant Activity Report.  The other errors could be eliminated
with additional internal control procedures over the acceptance of cases and
continuing management oversight.
RECOMMENDATIONS
The OIG recommends that grantee management:
Discontinue the practice of reporting "cases" where clients' names are not
obtained and documented in the case files.  The 1999 Grant Activity Report
must not report these as "cases."
Implement internal control procedures to ensure that cases are not
established and reported for rejected clients and ineligible clients.
Implement internal control procedures to ensure that cases are promptly
closed when legal services are completed.
Implement supervisory review procedures providing for the periodic review of
closed and open cases to ensure only appropriate cases are included in the
case management system.
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
Summary of Grantees Comments
The grantee did not agree that its 1998 CSR report overstated closed and
open cases.  The grantee stated that the OIG may not have used the appropriate
criteria to determine reportable cases.  According to the grantee, the criteria the
OIG used to determine LSC eligibility went beyond the LSC Act, implementing
regulations, the CSR handbooks and program letters because it held grantees
responsible for knowledge of all directives and protocols LSC articulated to
individual recipients.  The grantee stated that it followed the established criteria
and guidelines in reporting cases, and furthermore, it was not appropriate for LSC
and the OIG to suggest that the grantee failed to follow CSR manuals and was in
noncompliance with requirements that did not exist at the time the reports were
required.
The grantee's comments are in Appendix II (51K).
OIG's Decision
Auditors primarily used the 1993 CSR Handbook for criteria in evaluating
cases.  Two sections of the 1999 edition of the CSR Handbook were applicable to
1998 data:  "Timely Closing of Cases" and "Management Review of Cases Service
Reports."  These sections were used where applicable.  The OIG also applied these
criteria:  (1) report cases once; (2) document the clients name; and, (3) document
the clients income and citizenship eligibility.
LSC management holds that client names are a prerequisite for reporting
cases for CSR purposes.
The grantees comments did not provide any basis for modifying the audit
report.  No evidence was provided to support the grantees assertion that the OIGs
findings were contrary to guidelines in effect for 1998 reporting.
GRANTEES SPECIFIC COMMENTS AND OIG DECISIONS
Grantee Comments: Clients Not Identified
The grantee stated that its telephone hotline policy was to determine eligibility in
accordance with LSC regulations, CSR Handbooks (1993 and 1999 editions) and
record the client's address and other identifying client information but not the
clients name.
The grantee stated that a client's name is not a prerequisite for a reportable
case and that LSC has never required grantees to obtain client names.
Furthermore, LSC never advised the grantee that clients' names were required for
telephone hotline cases to be considered LSC eligible cases.  The grantee cited
applicable definitions and regulations and concluded that neither the 1993 nor the
1999 CSR Handbook required the recording of a clients name as a prerequisite for
a reportable case.  The grantee stated that, in the absence of a requirement to
obtain client names, it did not incorrectly report cases for which the client's
identity had not been determined.
OIG Decision
LSC requires a client name as a prerequisite for reporting a case.  In a
December 2, 1999 letter responding to Legal Services of North Texas, LSC
management informed the grantee that the OIG position was correct regarding the
exclusion of those cases that lack a name.  The grantees comments indicated that
client names were not obtained for telephone hotline cases.  Therefore, the audit
report correctly states that 2,947 cases without names should not have been
reported.
Grantee Comments:  Cases Reported More Than Once
The grantee's comments state that the criteria applicable for 1998 reporting
did not require the elimination of duplicate cases from the 1998 Grant Activity
Report.  To support its position, the grantee cited LSC Program Letter 98-8; Center
for Law and Social Policy "Regulatory Policy Memorandum No. 99-1," and LSC
document "Frequently Asked CSR Questions and Answers."  The grantee asserted
that since LSC did not require the elimination of all duplicates from the 1998 case
statistical data, the OIG should not substitute its judgment and report duplicate
cases as errors.
The grantee also asserted that it was not accurate to state adequate controls
were not in place to ensure reported cases without clients names did not include
duplicates.  The grantee stated that hotline data could be generated to identify
duplicate client information and problem codes.  However, the grantee asserted
that the single recording and reporting of cases was not required in 1998 CSR
reports to LSC.
OIG Decision
The grantees response did not dispute that the OIG correctly determined
that the Grant Activity Report included duplicate cases.  The grantees justification
for reporting duplicate cases was that LSC did not prohibit reporting them.
Program letter 98-8 stated that "...the accuracy and reliability of case
statistics ... is essential."  Accurate statistics cannot be compiled when the same
case is reported more than once.  In addition, LSC management has recently
restated its position that duplicate cases should not be reported.  This policy was
stated to Legal Services of North Texas in a letter, dated December 2, 1999, in
which LSC management informed the grantee that the OIG position was correct
regarding the exclusion of duplicate cases.  It is clear that LSC managements
intent was that duplicate cases should be eliminated except in cases where doing
so would be a substantial burden for the grantee.
The grantees comments did not result in report changes.
Grantee Comments: Identification of Minor Errors
The grantee asserted that identifying one or two minor errors in a specific
category and then projecting these errors was extremely misleading.  The grantee
stated that the errors identified as duplicates and over income clients did not
indicate systematic problems or demonstrate a lack of internal controls.
OIG Decision
The primary objective of this audit was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
Statistically valid methods were used to formulate conclusions regarding the results
of our review.
The grantees comments did not result in any report changes.
Grantee Comments On Recommendations
The grantee submitted documentation showing that recommendations 1
through 4 had been implemented.  As to recommendation 5, the grantee stated
that it would resubmit its 1998 Grant Activity Report without the hotline cases
provided that LSC provides written confirmation that the grantees hotline cases
should not be submitted in any revised report consistent with the OIGs
recommendations.
OIG Decision
Recommendation 5 has been deleted.  The calendar year is almost over and
little is to be gained by correcting the 1998 Grant Activity Report.  The grantee
could better use its resources to ensure that the 1999 Grant Activity Report is
accurate.
The other recommendations are considered resolved and closed, based on
the information the grantee provided.
APPENDIX I
LIST OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 6)Recommendations #1, 2, 3 and 4
2.Open cases were overstated (page 7)REcommendations #2, 3, and 4
APPENDIX II
Legal Services of North Texas Comments on Draft Report
APPENDIX III
OIG STAFF RESPONSIBLE FOR THE AUDIT REPORT
Anthony M. Ramirez (Auditor-in-charge)
Abel Ortunio
Home | Reports | Top |
Appendix II -- Legal Services of North Texas, Inc. Comments on Draft Report (51K).
URL: http://www.oig.lsc.gov/reports/00002/744030.htm